Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  SCIENTIFIC DISAGREEMENTS 

  REGARDING MEDICAL DEVICE 

    REGULATORY DECISIONS 





                    Daniel R. Levinson

                     Inspector General


                       June 2012 

                     OEI-01-10-00470 

EXECUTIVE SUMMARY: SCIENTIFIC DISAGREEMENTS REGARDING
MEDICAL DEVICE REGULATORY DECISIONS
OEI-01-10-00470


WHY WE DID THIS STUDY

The Food and Drug Administration (FDA) plays a critical role in ensuring the safety and
effectiveness of medical devices and other products. At the Center for Devices and
Radiological Health (CDRH), a series of scientific disagreements received media attention
between 2008 and 2010. In these instances, CDRH reviewers and their managers disagreed
over whether medical devices under review met applicable review standards. In October
2009, CDRH issued new policies and procedures for resolving internal scientific
disagreements related to regulatory decisions.

HOW WE DID THIS STUDY

We surveyed CDRH managers and reviewers, requesting that they identify scientific
disagreements that occurred during the fiscal year 2008–2010 period. We then reviewed the
administrative files related to 36 reported scientific disagreements for the same period. We
also surveyed respondents about their awareness of and training on CDRH’s new policies and
procedures for addressing scientific disagreements.

WHAT WE FOUND

Of the 36 reported scientific disagreements, 3 occurred after October 2009, and the new
procedures were used to resolve them. The nature and resolutions of these 36 disagreements
varied widely. Scientific disagreements often involved multiple issues, and most of their
resolutions did not lead directly to the approval or clearance of devices. Most administrative
files related to scientific disagreements contained required documentation, although
accountability for file completeness is unclear. In addition, not all of CDRH’s managers and
reviewers have received training on the new procedures. CDRH also faces broader challenges
in identifying and resolving scientific disagreements because of uncertainty about regulatory
definitions and processes and staff perceptions about expressing differences of opinion.

WHAT WE RECOMMEND

We recommend that FDA: (1) define more clearly its requirements for documenting and
resolving scientific disagreements, (2) train all reviewers and managers on the new policies
and procedures for resolving scientific disagreements, and (3) more clearly assign
accountability for the contents of the administrative files of all submissions. FDA concurred
with our three recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................8 

Findings......................................................................................................11

           At least 36 device submissions had reported scientific 

           disagreements from FY 2008 through FY 2010 ............................11

           The nature and resolutions of CDRH’s reported scientific 

           disagreements varied widely ..........................................................12 

           Most administrative files related to scientific disagreements 

           contained required documentation .................................................14 

           Not all of CDRH’s managers and reviewers received training                 

           on the new scientific disagreement procedures .............................15 

           CDRH faces challenges in identifying and resolving scientific 

           disagreements ................................................................................17 

Recommendations......................................................................................20 

           Agency Comments and Office of Inspector General Response.....22 

Appendix A: Agency Comments ..............................................................23 

Acknowledgments......................................................................................26 

         OBJECTIVES
         1.	 To describe the extent and nature of reported internal scientific
             disagreements related to regulatory decisions at the Food and Drug
             Administration’s (FDA) Center for Devices and Radiological Health
             (CDRH) from fiscal year (FY) 2008 through FY 2010.
         2.	 To determine whether CDRH followed required regulations, policies,
             and procedures when addressing internal scientific disagreements.
         3.	 To assess the extent to which CDRH has implemented its new policies
             and procedures for addressing internal scientific disagreements.
         4.	 To identify challenges CDRH faces in addressing internal scientific
             disagreements.

         BACKGROUND
         The integrity of FDA’s process for approving new medical products is
         essential to ensure that the public receives safe and effective products and
         has confidence in the manner in which FDA comes to its approval decisions.
         The President underscored the importance of scientific integrity, including
         the value of open dialogue, in a March 2009 memorandum to the heads of all
         executive departments and agencies.1
         Scientific disagreements among FDA reviewers may arise for many reasons.
         When reviewers are unable to resolve a disagreement through open
         communication, a fair and transparent resolution process is essential to
         ensure scientific integrity.2 At CDRH, a series of scientific disagreements
         initiated by reviewers received media attention between 2008 and 2010.3 In
         these instances, CDRH reviewers and their managers disagreed over whether
         medical devices under review met applicable review standards.4
         In October 2009, CDRH issued new policies and procedures for addressing
         internal scientific disagreements consequential to regulatory decisions. The


         1
           Memorandum on Scientific Integrity, 74 Fed. Reg. 10671 (Mar. 11, 2009).
         2
           FDA regulations describe a general process for resolving internal disputes on significant 

         FDA decisions. 21 CFR § 10.75.

         3
           G. Harris, “Scientists Accuse Agency Officials of Misconduct,” The New York Times, 

         November 18, 2008; “Dissidents at FDA Complain of Inquiry,” The New York Times, January 

         27, 2009; and “Scientists Say FDA Ignored Radiation Warnings,” The New York Times 

         March 28, 2010. 

         4 The U.S. Office of Special Counsel, an independent Federal investigative and prosecutorial 

         agency, is investigating allegations from some of these reviewers that FDA monitored their 

         emails related to these disagreements. See Office of Special Counsel Broadens Investigation 

         into FDA’s Surveillance of Employees’ E-mail. Accessed at www.osc.gov on February 22, 

         2012. 


Scientific Disagreements Regarding Medical Device Regulatory Decisions (OEI-01-10-00470)    1
         guidance defines eligible differences of opinion as “consequential to a
         regulatory decision (such as, but not limited to, a product approval,
         clearance … ) if taking one position on the issue would lead to a different
         decision than taking another position.”5 [Emphasis added.]
         CDRH Organizational Structure
         CDRH is one of seven centers at FDA.6 CDRH comprises eight offices
         headed by directors, including the Office of the Center Director.7 Of the
         eight CDRH offices, the principal ones that approve or clear new devices for
         sale in the United States are the Offices of Device Evaluation (ODE) and In
         Vitro Diagnostic Device Evaluation and Safety (OIVD).
         ODE consists of five divisions organized by general medical device types,
         such as cardiovascular or surgical and orthopedic devices. OIVD consists of
         four divisions organized around diagnostic device types, such as radiological
         or immunology and hematology devices.8
         CDRH has an ombudsman, who reports to the Deputy Center Director for
         Policy and serves as an impartial party to assist in addressing industry
         complaints about CDRH. The ombudsman also assists in addressing
         scientific disagreements among CDRH employees.
         Medical Device Approval and Clearance
         The Medical Device Amendments of 1976 to the Federal Food, Drug, and
         Cosmetic Act (FFDCA) established a framework for regulating medical
         devices.9 CDRH assigns each type of device one of three regulatory
         classifications (Class I, II, or III) that are based on its intended use and
         potential risk to patients and other end users. Regulatory control increases
         from Class I to Class III. The application path for a medical device
         depends on its class and level of risk. CDRH approves medical devices
         submitted under the Premarket Approval (PMA) process and clears
         medical devices submitted under the Premarket Notification (510(k))




         5
           FDA, CDRH, Standard Operating Procedure (SOP) for Resolution of Internal Differences
         of Opinion in Regulatory Decision-Making, October 30, 2009, § 4.4, p. 5. The term
         “regulatory decision” is not defined in statute or regulations.
         6
          The other FDA centers are the Center for Drug Evaluation and Research, Center for
         Biologics Evaluation and Research, Center for Food Safety and Applied Nutrition, Center for
         Veterinary Medicine, Center for Tobacco Products, and National Center for Toxicological
         Research.
         7
           CDRH Organizational Chart. Accessed at www.fda.gov on August 11, 2011.
         8
           FDA moved its radiological products division from ODE to OIVD in February 2010.
         9
           The Medical Device Amendments of 1976, P.L. 94-295, are codified largely in ch. V of the
         FFDCA, §§ 501–573, 21 U.S.C. §§ 351–360ccc-2.

Scientific Disagreements Regarding Medical Device Regulatory Decisions (OEI-01-10-00470)   2
         process.10 Under certain circumstances, CDRH may allow manufacturers
         to market a device under a humanitarian use device exemption.
         The PMA Process. For a medical device that poses a significant risk of
         illness or injury, the manufacturer generally must submit a PMA
         application.11 When submitting a PMA application, a manufacturer must
         present sufficient valid scientific evidence to provide a reasonable assurance
         that a device is safe and effective for its intended use and otherwise meets
         the statutory criteria for approval.12 After CDRH approves a device for
         marketing in the United States, the manufacturer generally must submit a
         supplemental application to CDRH before it makes any change to the device
         that may affect its safety or efficacy.13
         Typically, CDRH reviews safety and effectiveness data from clinical trials
         on human subjects. CDRH requires a manufacturer to obtain an
         investigational device exemption (IDE) for a device before conducting
         clinical trials that may pose significant risks to humans.14 CDRH reviews
         the IDE application to determine whether the investigational plan, including
         the clinical trial protocol, is sound and human subjects are adequately
         protected.
         The 510(k) Process. The 510(k) process is considered a faster and less
         stringent premarket review process than PMA.15 A submission under the
         510(k) process must demonstrate that the device in question is substantially
         equivalent to a legally marketed device that is not subject to the PMA
         process (predicate device).16 Most 510(k) submissions do not require
         clinical trial data.17
         CDRH clears a device for marketing if it determines that the submitted
         device has the same intended use and technological characteristics as the

         10
            Most Class I devices are low-risk medical devices, such as tongue depressors and manual
         stethoscopes, and are exempt from FDA’s premarket notification requirements. See FDA,
         CDRH, Learn If a Medical Device Has Been Cleared by FDA for Marketing. Accessed at
         www.fda.gov on December 7, 2011.
         11
            21 CFR § 814. Class III devices must be reviewed through the PMA process unless they are

         substantially equivalent to a device introduced to the U.S. market before May 28, 1976. 

         These Class III devices may be reviewed through the 510(k) process until FDA requires their

         manufacturers to submit PMA applications. See FDA, CDRH, General and Special Controls. 

         Accessed at www.fda.gov on December 7, 2011. 

         12
            FFDCA, § 515(d)(2); 21 CFR §§ 814.44(d)(1) and 814.45(a).

         13
            21 CFR § 814.39(a). 

         14
            21 CFR Part 812. FDA regulations permit a device manufacturer, under certain

         circumstances, to support a PMA with clinical trial data obtained from trials not conducted 

         under an IDE. 21 CFR § 814.15. 

         15
            21 CFR pt. 807, subpart E. 

         16
            21 CFR §§ 807.87 and 807.92(a). 

         17
             FDA, CDRH, Device Advice: Investigational Device (IDE). Accessed at www.fda.gov on 

         December 7, 2011.


Scientific Disagreements Regarding Medical Device Regulatory Decisions (OEI-01-10-00470)    3
         predicate device. A device with technological characteristics that differ from
         those of the predicate device may also be declared substantially equivalent if
         the information in the 510(k) submission demonstrates that the device is at
         least as safe and effective as the predicate and does not raise additional
         questions of safety and effectiveness.18
         Humanitarian Use Device Exemption. Manufacturers may also receive
         approval to market their devices under the humanitarian use device
         exemption. This exemption is for medical devices designed to treat rare
         diseases or conditions.19
         Product Review Timelines. The Medical Device User Fee Amendments
         Act of 2007 (MDUFA II) reauthorizes FDA to collect user fees for medical
         device applications and identify appropriate timelines for the review of
         some product submissions.20 The review times vary by application type,
         ranging from 60 days for some PMA supplemental applications to 295
         days for some PMAs.21 If the device manufacturer submits an incomplete
         application, CDRH may send a letter to the manufacturer requesting
         additional information and place the review on hold while it awaits a
         response.
         Potential Scientific Disagreements That May Affect Regulatory
         Decisions
         For each type of regulatory decision, such as the approval of a PMA
         application or clearance of a 510(k) submission, multiple CDRH reviewers
         and managers, often with different backgrounds and training, analyze data
         presented by the applicant. Reviewers and managers make
         recommendations or take regulatory action on the basis of their
         interpretations of those data. A difference of opinion among FDA reviewers
         or managers is always possible.
         For example, CDRH reviewers and managers could disagree on whether:
         	 clinical trial data submitted in a PMA application demonstrate safety
            and effectiveness or
         	 a 510(k) application demonstrates that a device is substantially
            equivalent to a predicate device.

         18
            FFDCA, § 513(i), and FDA, CDRH, Guidance on the CDRH Premarket Notification
         Review Program, 6/30/86 (K86-3), 510(k) Memorandum #K86-3. Accessed at www.fda.gov
         on December 7, 2011.
         19
            FFDCA, § 520(m)(1)(2).
         20
            MDUFA II is contained within Title II of the Food and Drug Administration Amendments
         Act of 2007, P.L. 110-85 (Sept. 27, 2007). MDUFA II does not address IDEs and certain
         PMA supplements. FDA, FY 2010 Performance Report to Congress Medical Device User
         Fee Amendments of 2007. Accessed at www.fda.gov on August 12, 2011.
         21
            Ibid.

Scientific Disagreements Regarding Medical Device Regulatory Decisions (OEI-01-10-00470)   4
         A scientific disagreement may consist of multiple issues. For example, 

         disagreements over a device’s safety could concern all of the following: 

             clinical trial data,

             an engineering aspect of the device, or 

             a manufacturing issue. 

         In most instances, CDRH reviewers and managers resolve disagreements 

         through discussion and consensus building. 

         CDRH Procedures for Resolving Scientific Disagreements
         Administrative Procedures. FDA’s regulations provide the basis for
         resolving scientific disagreements by requiring the documentation of
         recommendations and decisions, including significant controversies or
         differences of opinion and their resolutions, and by authorizing internal
         review of decisions.22 FDA regulations require that employees maintain an
         administrative file for every significant regulatory decision (e.g., approval of
         a PMA application). The administrative file must contain:
         	 appropriate documentation of the regulatory decision and
         	 recommendations and decisions of all relevant reviewers and
            managers, including documentation of “significant controversies or
            disagreements and their resolutions.”23
         FDA regulations also permit FDA employees to request an internal review of
         a decision.24 For example, a branch chief may review the administrative file
         associated with a regulatory decision should he or she have concerns about
         some aspect of the review and may then raise those concerns with the
         next-level manager. An internal FDA review of a decision must be based
         exclusively on information in the administrative file.25
         CDRH Guidance Prior to October 2009. This guidance for resolving
         scientific disagreements encouraged reviewers to consult with their
         supervisors during a device review.26 If a supervisor disagreed with the
         conclusions or recommendations of a review, he or she could not order
         changes. Instead, the supervisor was required to discuss the disagreement
         with the reviewer. The guidance provided that if the disagreement was
         resolved through discussion, a memorandum (overturn memorandum) could
         22
            21 CFR §§ 10.70 and 10.75.

         23
            21 CFR § 10.70(b).

         24
            21 CFR § 10.75(a).

         25
            21 CFR § 10.75(d). 

         26
            CDRH, Documentation and Resolution of Differences of Opinion on Product Evaluations, 

         Guidance Memorandum G93-1, p. 1, 1993, revised 1996. This guidance was written by ODE.

Scientific Disagreements Regarding Medical Device Regulatory Decisions (OEI-01-10-00470)   5
         be added to the administrative file, as appropriate, indicating the agreement
         reached.27
         If a reviewer and supervisor could not reach consensus on a review, the
         division director resolved the disagreement by evaluating the review
         package and rendering a decision. If the decision was not scientific in
         nature, the director could make a notation in the file. If the issues related to
         the substantive scientific evaluation and the director decided to act contrary
         to the recommendation, he or she added a memorandum to the
         administrative file stating the decision made and its basis. A reviewer or
         supervisor who disagreed with the decision could appeal to progressively
         higher supervisory levels until the appeal reached the FDA Commissioner.28
         CDRH officials told us that reviewers and supervisors used these scientific
         disagreement procedures inconsistently.
         CDRH Guidance Effective October 2009. In January 2009, FDA released an
         agencywide directive to strengthen procedures for addressing internal
         scientific disagreements.29 The directive required each center to establish its
         own disagreement resolution policies and established an FDA-wide appeals
         process for resolving internal scientific disagreements. CDRH released new
         procedures for resolving scientific disagreements in October 2009.30
         The new procedures provide a formal process for resolving internal
         disagreements consequential to regulatory decisions. The procedures cover
         both the interpretation of scientific evidence to support a decision and the
         interpretation or application of law or policy (scientific disagreements). A
         scientific disagreement is “consequential to a regulatory decision … if taking
         one position on the issue would lead to a different decision than taking
         another position.”31
         The new procedures encourage managers and reviewers to attempt to resolve
         their disagreements through discussion before they invoke the new
         procedures. If a scientific disagreement is not resolved through discussion, a
         reviewer or manager may initiate CDRH’s new procedures by writing an
         initiation memorandum outlining his or her position. The ombudsman
         reviews the memorandum and determines whether it is complete and eligible



         27 Ibid., pp. 2–3.

         28
            Ibid., pp. 3–4.

         29
            FDA, FDA Staff Manual Guides, SMG 9010.1 vol. IV, “Agency Program Directives, 

         General or Multidiscipline Dispute Resolution, Scientific Dispute Resolution at FDA” 

         (effective January 13, 2009).

         30
            CDRH, Standard Operating Procedure (SOP) for Resolution of Internal Differences of 

         Opinion in Regulatory Decision-Making, October 30, 2009.

         31
            Ibid., § 4.4, p. 5. 


Scientific Disagreements Regarding Medical Device Regulatory Decisions (OEI-01-10-00470)   6
         for the new process.32 This review must be completed within 10 calendar
         days of receipt. A complete initiation memorandum must include:
         	 the nature of the disagreement,
         	 the basis for the initiator’s position,
         	 any additional information or evaluations needed to resolve the
            disagreement, and
         	 the initiator’s recommendation for each issue raised and the basis for
            each recommendation.
         If the ombudsman determines that the initiation memorandum is complete
         and eligible, he or she assigns a manager not involved in the initial
         disagreement to review it. That manager discusses the disagreement with all
         parties involved and attempts to resolve it. If the disagreement is resolved,
         the reviewer(s) and manager involved in the disagreement must add a joint
         memorandum to the administrative file documenting both the resolution
         reached and its basis.
         If the parties are unable to resolve the disagreement, the manager must make
         a decision on each disputed issue on the basis of a review of evidence in the
         administrative file and any other relevant resources. A decision
         memorandum must document efforts made to resolve the disagreement, as
         well as the manager’s final decision on each issue and its basis. The
         manager must send the decision memorandum to the ombudsman and all
         parties involved within 30 days of receiving the initiation memorandum. If
         the manager consults with parties not involved in the disagreement, he or she
         has 45 days to file the decision memorandum. The decision memorandum
         must be placed in the administrative file.
         If a reviewer or any other involved party is not satisfied with the
         manager’s decision, he or she may appeal within 10 calendar days for a
         review by a higher supervisory level. Under the procedures, an appealing
         party may continue to appeal the final decision at progressively higher
         supervisory levels until the appeal reaches the Center Director. Once
         Center action is complete, an appealing party may carry the matter to the
         FDA Commissioner.33
         CDRH tracks only those scientific disagreements that use the new
         procedures and does not track scientific disagreements that have been
         resolved informally, no matter how significant they are.


         32
            To be eligible for the disagreement resolution process, the disagreement must be scientific 

         and related to a regulatory decision. 

         33
            FDA, FDA Staff Manual Guides, SMG 9010.1, vol. IV. 


Scientific Disagreements Regarding Medical Device Regulatory Decisions (OEI-01-10-00470)       7
         METHODOLOGY
         Scope
         We reviewed the administrative files related to all reported CDRH internal
         scientific disagreements within ODE and OIVD for the FY 2008–2010
         period. Our review included disagreements using both the current and
         former policies and procedures. We did not assess the appropriateness of the
         final decisions.
         Data Sources
         We used four sources of data in our review: CDRH administrative files; an
         online survey of CDRH reviewers and managers; interviews with CDRH
         officials and other stakeholders; and CDRH’s current and former policies,
         procedures, and guidance documents.
         Data Analysis
         CDRH Administrative Files. Because CDRH did not formally track
         scientific disagreements until FY 2010, when it implemented its new
         procedures, we identified scientific disagreements for the FY 2008–2010
         period in two ways.
         First, we sent emails to 49 ODE and OIVD managers requesting that they
         identify scientific disagreements that occurred during the FY 2008–2010
         period. We specified that the managers should include scientific
         disagreements in which:
             the CDRH guidance prior to October 2009 was used,
             overturn memorandums were written, or
             FDA’s regulations relating to administrative procedures were used.
         Twenty-four ODE and OIVD managers representing all 9 product review
         divisions responded and identified 25 disagreements for the period of our
         review.
         Second, we surveyed those same managers as well as all reviewers working
         at ODE and OIVD using a questionnaire. We surveyed only ODE and OIVD
         staff involved in the review of medical devices. Respondents identified 21
         additional scientific disagreements for the FY 2008–2010 period, for a total
         of 46. CDRH provided the administrative files for all identified
         disagreements.
         We excluded 10 disagreements from the original 46. Eight were excluded
         because they occurred outside the scope of our review (one involved
         external rather than internal parties and seven did not occur during the
         FY 2008–2010 period). Two of the reported disagreements were duplicates
         of previously reported disagreements and therefore were not reviewed.


Scientific Disagreements Regarding Medical Device Regulatory Decisions (OEI-01-10-00470)   8
         We reviewed 36 administrative files to determine whether scientific
         disagreements were documented in accordance with applicable CDRH
         policies and procedures. Of the 36 scientific disagreements we reviewed,
         33 used the pre-October 2009 procedures or resolved the disagreements
         informally. Three used the new formal procedures.
         Survey of ODE and OIVD Reviewers and Managers. We surveyed all ODE
         and OIVD reviewers and managers working at CDRH at the time of our
         survey in April 2011. We developed and used an online survey to determine
         the extent to which ODE and OIVD employees were involved in scientific
         disagreements during the FY 2008–2010 period. We also surveyed
         respondents about their awareness of and training on CDRH policies and
         procedures for addressing scientific disagreements. CDRH reviewed the
         survey and encouraged its reviewers and managers to respond to it.
         CDRH provided the email addresses of 564 reviewers and managers. We
         excluded eight individuals with invalid email addresses who were no longer
         employed at FDA. We emailed survey invitations to 556 managers and
         reviewers. We made four attempts via email to obtain responses from ODE
         and OIVD reviewers and managers. We also gave respondents an
         opportunity to call the Office of Inspector General (OIG) and respond over
         the phone. We received responses from 196 reviewers and managers, a
         response rate of 35 percent.
         Interviews With FDA Officials and Other Stakeholders. We conducted
         structured interviews with CDRH officials and other stakeholders to obtain
         additional context to the administrative file review. As needed for
         clarification, we interviewed survey respondents who provided contact
         information.
         Review of FDA Policies, Procedures, and Guidance Documents. We
         obtained and reviewed all relevant policies, procedures, and guidance
         documents issued by FDA and CDRH for resolving internal scientific
         disagreements.
         Limitations
         Because CDRH did not track scientific disagreements until FY 2010, we
         requested that ODE and OIVD managers and reviewers identify all scientific
         disagreements during the FY 2008–2010 period. Identification was based on
         personal recall. Turnover at CDRH, lack of recall of disagreements that
         occurred, and differing interpretations of what constitutes a scientific
         disagreement may have led to underreporting.
         The response rate for our survey of ODE and OIVD managers and reviewers
         was 35 percent, a rate that CDRH reports is comparable to that of its internal



Scientific Disagreements Regarding Medical Device Regulatory Decisions (OEI-01-10-00470)   9
         surveys. A variety of factors may have contributed to this rate, including
         concerns of reviewers and managers regarding anonymity.
         Because of the response rate, survey responses cannot be generalized to all
         ODE and OIVD managers and reviewers. The response rate may also have
         contributed to underreporting of scientific disagreements because the survey
         was the only means for reviewers to report them.
         Standards
         This study was conducted in accordance with the Quality Standards for
         Inspection and Evaluation issued by the Council of the Inspectors General
         on Integrity and Efficiency.




Scientific Disagreements Regarding Medical Device Regulatory Decisions (OEI-01-10-00470)   10
         FINDINGS

         At least 36 device submissions had reported
         scientific disagreements from FY 2008 through
         FY 2010
         CDRH annually processes about 6,000 submissions that require regulatory
         decisions.34 However, CDRH began tracking scientific disagreements only
         in October 2009, when the new formal resolution procedures became
         effective. It had not tracked scientific disagreements resolved using other
         methods, such as the pre-October 2009 procedures. The actual number of
         disagreements could well have been higher than 36 because we had to rely
         on the individual recall of reviewers and managers, through an email inquiry
         and online survey, to identify them. The response rate was 35 percent;
         consequently, it is possible that unreported scientific disagreements occurred
         during the FY 2008–2010 period.
         Of the 36 submissions with scientific disagreements, 3 used the
         new procedures for resolving them
         CDRH’s new procedures provide both a means for formally resolving
         scientific disagreements and a mechanism for tracking and documenting
         them and their resolutions. CDRH does not require reviewers and managers
         to use the new procedures; the individual parties are, in fact, encouraged to
         resolve the disagreements informally if possible.35 We identified
         nine scientific disagreements that occurred after the new procedures were
         released in October 2009. Of these nine, three used the new procedures and
         six were resolved informally.
         Scientific disagreements involving 510(k) submissions and
         radiological products were most common
         CDRH reviewers and managers reported scientific disagreements for
         19 510(k) and 11 PMA submissions (see Table 1). As a percentage of
         submissions, 510(k)s were the most common, constituting about 65 percent
         of the estimated 18,000 submissions received during the FY 2008–2010
         period.36 PMA submissions, including supplements, constituted about
         33 percent of submissions for the 3-year period.



         34
            Based on FY 2010 performance data provided by CDRH.
         35
            CDRH, Standard Operating Procedure (SOP) for Resolution of Internal Differences of 

         Opinion in Regulatory Decision-Making, October 30, 2009, p. 3.

         36
            Based on FY 2010 performance data provided by CDRH.


Scientific Disagreements Regarding Medical Device Regulatory Decisions (OEI-01-10-00470)   11
         Table 1: Number of Medical Device Submissions With Scientific
         Disagreements by Type, FY 2008–2010


         Submission Type                 Pre-October 2009               October 2009                Total
                                              Procedures                 Procedures
         510(k)                                        17                          2                  19
         PMA                                           11                          0                  11
         IDE                                            5                          0                   5
         Humanitarian use                              10                          1
         device exemption
           Total                                              33                   3                  36
         Source: OIG analysis of CDRH administrative files.



         Eleven scientific disagreements involved radiological devices; two of them
         used the October 2009 procedures. The remaining 25 disagreements
         occurred across the other types of medical devices.
         The majority of scientific disagreements (23 of 36) occurred between
         reviewers and their managers (see Table 2).


         Table 2: Number of Medical Device Submissions With Scientific
         Disagreements by Involved Parties, FY 2008–2010
        Involved Parties                       Pre-October 2009              October 2009           Total
                                                    Procedures                Procedures
        Reviewers and                                        21                         2             23
        managers
        Peer reviewers                                    9        9                       0
        within a single office
        Peer reviewers in                                 2        1                       1
        two separate offices
        Unable to determine                                         2                      0           2
           Total                                                   33                      3          36
         Source: OIG analysis of CDRH administrative files.



         The nature and resolutions of CDRH’s reported
         scientific disagreements varied widely
         CDRH’s scientific disagreements involved a range of issues and their
         resolutions often did not lead directly to the approval or clearance of the
         medical devices. About one-third of the resolutions directly led CDRH to
         clear or approve new devices, while the other two-thirds dealt with the
         process prior to final decisions on clearance or approval.




Scientific Disagreements Regarding Medical Device Regulatory Decisions (OEI-01-10-00470)       12
         Two-thirds of scientific disagreements contained multiple issues
         Of the 36 scientific disagreements we reviewed, 24 involved multiple issues.
         CDRH does not categorize or provide any common nomenclature for the
         types of issues that might cause a scientific disagreement, and managers and
         reviewers did not use consistent terminology to document their concerns.
         Many of the issues involved in scientific disagreements varied according to
         the type of submission, but issues related to device safety and effectiveness
         spanned all submission types. Disagreements about the 510(k) submission
         process contained the widest range of issues. These included whether a
         device was eligible for clearance through the 510(k) process, what labeling
         for a device was appropriate, and what predicate device was appropriate.
         Disagreements about PMA submissions included issues related to clinical
         trial design, the need for additional clinical data, and the appropriateness of
         labeling. For IDE submissions, the scientific disagreements related to the
         proposed clinical trial design.
         Two-thirds of the resolutions did not directly lead CDRH to clear or
         approve new medical devices for marketing
         The 36 resolutions spanned all steps of medical device development and
         processing through CDRH and often addressed reviewers’ needs for
         additional information from the manufacturers. The development and
         processing of a device includes design and clinical testing; 510(k) or PMA
         application submission; and postapproval activities, such as changes to the
         product.
         Device manufacturers seeking an IDE to conduct clinical trials on humans
         must submit to CDRH the details of proposed clinical trials, including the
         protocols, before they can start trials in the United States.37 Five of the
         resolutions addressed this part of the process. In one, CDRH reviewers
         disagreed about certain elements of a protocol that was submitted in advance
         of a formal IDE.38 As a result of the resolution, CDRH provided advice to
         the manufacturer on how to revise the protocol before submitting it for
         approval. As a result of the other four resolutions, CDRH approved the trial
         protocols. In two, CDRH placed conditions on the manufacturers’ conduct
         of the clinical trials.
         Twenty-five disagreements pertained to applications to clear or approve new
         devices. Of these, 12 resolutions led CDRH to clear or approve the new

         37
            21 CFR pt. 812.
         38
            CDRH encourages potential IDE submitters to consult with it before formally submitting
         an IDE application. CDRH also permits a “pre-IDE” submission for troublesome parts of the
         IDE application. CDRH issues a response to a review of a pre-IDE submission within 60 days
         of receipt. See FDA, CDRH, IDE Approval Process. Accessed at www.fda.gov on
         December 7, 2011.

Scientific Disagreements Regarding Medical Device Regulatory Decisions (OEI-01-10-00470)   13
         devices. Among the remaining 13, CDRH cleared or approved 2 devices and
         later reversed its decisions after additional review. In one case, a product
         needed approval from both CDRH and the Center for Drug Evaluation and
         Research because it combined both a device and a drug; CDRH issued
         preliminary approval for that product, but had to revise its decision because
         the Center for Drug Evaluation and Research had not yet approved the drug
         portion.39
         For CDRH to clear or approve a device for marketing, the manufacturer
         must submit a complete application. In some cases, the review team and
         managers agreed that a 510(k) or PMA application was incomplete, but
         disagreements arose about the type and extent of additional information to
         request. Eight of the twelve resolutions did not result in final decisions on
         the applications, but rather allowed the manufacturers to provide more
         information to CDRH so that the reviews could continue.
         Finally, six scientific disagreements and their resolutions addressed
         supplements to previously approved products. The resolutions of five of
         these ultimately led CDRH to approve the supplements. These supplements
         included changes to manufacturing sites, updates to firmware, and new
         indications, among others. CDRH did not approve one of the supplements.
         Most administrative files related to reported scientific
         disagreements contained required documentation
         Regulations require documentation of scientific disagreements to be
         included in a submission’s administrative file.40 The regulations, however,
         do not specify the type of documentation required. Therefore, we reviewed
         the documentation in the administrative files and characterized the types of
         documents included, e.g., formal memorandums or emails. Most files
         included documentation of the reported disagreements as required. CDRH
         has not specified which FDA employee is accountable for ensuring the
         completeness of the administrative file.
         Of the 36 administrative files, 5 lacked documentation
         Of the files with documentation, 22 contained formal memorandums
         documenting the scientific disagreements (see Table 3).
         Nineteen files contained formal memorandums, as recommended by the
         pre-October 2009 procedures, documenting the reversal of a previous
         decision or recommendation or clarifying a deficiency in the reviewer’s
         analysis. In addition, three files contained formal memorandums
         documenting disagreements resolved under the new procedures. In nine

         39
            A combination product is composed of two or more regulated product types, such as a drug 

         and a device. 

         40
            21 CFR § 10.70(b)(2)(i). 


Scientific Disagreements Regarding Medical Device Regulatory Decisions (OEI-01-10-00470)   14
         submission files, emails or other documentation referenced the scientific
         disagreements. Five files contained no documentation of the disagreements
         or their resolutions.
         Table 3: Documentation of Reported Scientific Disagreements Included in
         Administrative Files, FY 2008–2010
           Type of Documentation                                                     Number of Files
           Formal memorandum related to pre-October 2009                                          19
           procedures
           Formal memorandum related to new procedures                                            3
           (post-October 2009)
           Emails or other documents                                                              9
           No documentation                                                                       5
             Total                                                                               36
         Source: OIG analysis of CDRH administrative files.


         Reviewers either may not be aware of the requirements to document
         scientific disagreements or may feel pressure from managers to not
         document them. In response to our survey, 43 of 196 respondents stated that
         they were not aware that regulations require documenting scientific
         disagreements and their resolutions in the administrative files.
         Accountability for completeness of the administrative files is
         unclear
         The regulations for documenting significant decisions in the
         administrative files state that “FDA employees responsible for handling a
         matter are responsible for insuring the completeness of the administrative
         file relating to it.”41 We found no documentation that further defined to
         whom this language specifically refers. In an interview with CDRH
         officials, we attempted to clarify who was responsible for maintaining the
         administrative files. One official told us that CDRH does not define
         “employees responsible for handling a matter,” although generally they
         are the lead reviewers on submissions.
         Not all of CDRH’s managers and reviewers received
         training on the new scientific disagreement
         procedures
         In January 2009, FDA released an agencywide directive to strengthen
         procedures for addressing internal scientific disagreements. CDRH released
         its new procedures for resolving scientific disagreements in October 2009.
         However, as of April 2011, not all managers and reviewers had been trained.
         Among survey respondents, 87 of 192 reported that they had not been
         trained on the new procedures as of April 2011 (see Table 4). About half


         41
              21 CFR § 10.70(b).

Scientific Disagreements Regarding Medical Device Regulatory Decisions (OEI-01-10-00470)    15
         of the reviewers that responded said they had not received the training,
         compared to one quarter of managers.42

         Table 4: Survey Response by Position Regarding New Scientific
         Disagreement Procedures Training
         Training status                                                Manager               Reviewer
         Trained                                                             25                     80
         Not trained                                                          8                     79
            Total*                                                           33                    159
         *Four persons did not respond to this question.
         Source: OIG analysis of survey data.



         Furthermore, 65 of 192 respondents reported they did not know how to
         initiate the new scientific disagreement procedures. Almost all of these
         (64 of 65) were reviewers.
         Of the 105 survey respondents who indicated that they had received training
         on the new procedures, most reported group discussion with managers and
         peer reviewers (see Table 5).

         Table 5: Survey Response by Type of New Scientific Disagreement
         Procedures Training Received

           Training type                                                                   Respondents
           Group discussion with manager and/or                                                     57
           peers
           In person                                                                                38
           Informational handouts                                                                   37
           Internet module                                                                          19
           Other                                                                                     5
         Note: Respondents could provide more than one training type.
         Source: OIG analysis of survey data.



         CDRH provided training on the new procedures through its branches and
         divisions rather than centrally. Although the training was mandated by
         CDRH and managers were required to report the completion of the training
         by their organizational units, CDRH did not track who received the training.
         Training on the new policies and procedures serves several important
         purposes: (1) to provide an opportunity to highlight the details of the
         policies and procedures, (2) to answer managers’ and reviewers’ questions,
         (3) to communicate to managers and reviewers that the topic is important to
         the organization, and (4) to ensure that scientific disagreements are handled
         appropriately.

         42
           Of the 87 respondents who reported that they had not been trained on the new procedures,
         21 had started working at CDRH in 2010 or 2011.

Scientific Disagreements Regarding Medical Device Regulatory Decisions (OEI-01-10-00470)       16
         CDRH faces challenges in identifying and resolving
         scientific disagreements
         Regulatory decisions at CDRH require the professional judgment of reviewers
         and managers. However, in some instances, lack of clarity regarding
         definitions or internal processes may contribute to scientific disagreements.
         For example, uncertainty about certain elements of the 510(k) process may
         trigger scientific disagreements. Regulatory language about scientific
         disagreements leaves room for interpretation regarding what a scientific
         disagreement is and when it must be documented in the administrative file.
         Uncertainty about certain 510(k) regulatory definitions and
         processes may trigger scientific disagreements among CDRH
         reviewers
         Nine of the nineteen 510(k) submissions with disagreements related to
         whether devices were substantially equivalent to predicate devices.
         Determining substantial equivalence to a predicate device requires reviewers
         to exercise professional judgment and scientific expertise. In five cases,
         reviewers and managers disagreed over whether the intended uses for the
         510(k) devices were the same as those for the predicates. In three other
         cases, reviewers and managers disagreed over whether certain characteristics
         of predicate devices referenced in the applications made a substantial
         equivalency comparison inappropriate.
         Reviewers and managers also disagreed over whether to request additional
         information from applicants while the submissions were under review. In
         six cases, reviewers and managers disagreed about this issue, with managers
         recommending that information requests be sent. For example, in one case,
         the review team and manager disagreed about the appropriate steps after an
         applicant provided an incomplete response to a request for additional
         information. The review team recommended that the submission be found
         not substantially equivalent, while the manager argued for a second request
         for additional information. In supporting her recommendation, the manager
         contended that although CDRH had no policy requiring reviewers to give the
         applicant a second opportunity to provide additional information, it was
         good practice.
         To address internal and external concerns regarding the 510(k) review
         process, CDRH conducted a study of its process. CDRH identified several
         areas for improvement, including (1) a lack of clarity regarding pivotal terms
         defining “substantial equivalence”; (2) use of predicates that may not be
         appropriate; (3) variations in the expertise, experience, and training of
         reviewers and managers contributing to inconsistency or uncertainty in
         510(k) decisionmaking; and (4) inadequate submissions by some



Scientific Disagreements Regarding Medical Device Regulatory Decisions (OEI-01-10-00470)   17
         applicants.43 CDRH is taking steps to address these issues. The Institute of
         Medicine also conducted a review of CDRH’s 510(k) process and raised
         concerns about the process in general.44
         Regulatory language addressing the documentation of
         scientific disagreements is unclear
         The new CDRH policy requires documentation of scientific disagreements
         resolved using the new procedures through a written memorandum placed in
         the administrative file. The FDA regulations that speak to the completeness
         of an administrative file are much broader. They address the documentation
         of significant decisions in the administrative files and state: “[t]he
         recommendations and decisions are to reveal significant controversies or
         differences of opinion and their resolution.”45 FDA and CDRH do not
         further define the terms “significant controversy” and “difference of
         opinion,” but the regulations do not limit the terms to disagreements that
         invoke the new procedures. One CDRH official told us that no guidance
         explains what constitutes a significant scientific disagreement, adding that
         “it would be in the eye of the beholder.”
         Of the scientific disagreements we reviewed, 14 were not documented with
         formal memorandums in the administrative files. It is difficult to determine
         whether the disagreements were not documented because of an oversight on
         the part of the parties involved or whether reviewers considered them too
         minor to warrant formal memorandums. At least one party to the
         disagreement would have to consider it to be significant to document it for
         the administrative file. It is also possible that two parties have a scientific
         disagreement that is undocumented because of other reasons.
         Each regulatory decision at CDRH requires an action that incorporates the
         work of many reviewers and their managers, and scientific disagreements
         are inevitable. CDRH survey respondents reported that scientific
         disagreements are, in fact, common, but are generally resolved through
         open communication, management, and training.46 Such cases do not rise
         to the level of a scientific disagreement that needs to be resolved using the
         new formal procedures.



         43
            CDRH Preliminary Internal Evaluations – Volume I, 510(k) Working Group: Preliminary 

         Report and Recommendations, August 2010. Accessed at www.fda.gov on 

         December 11, 2011. 

         44
            Institute of Medicine of the National Academies, Medical Devices and the Public’s Health: 

         The FDA 510(k) Clearance Process at 35 Years, 2011.

         45
            21 CFR § 10.70(b)(2)(i).

         46
            CDRH’s new procedures for resolving scientific disagreements reflect this in that they

         encourage staff to attempt to work out disagreements through discussion prior to initiating the 

         formal procedures. 


Scientific Disagreements Regarding Medical Device Regulatory Decisions (OEI-01-10-00470)       18
         Reviewers and managers have mixed perceptions about holding
         and expressing differences of opinion
         CDRH policy highlights its goal of supporting a work environment in which
         managers and reviewers are free to express scientific disagreements without
         fear of retaliation. However, some survey respondents expressed concerns
         about doing so: 41 of 196 respondents reported concerns that expressing a
         scientific disagreement to management could adversely affect their careers.
         In addition, six CDRH reviewers reported incidents in which they felt some
         pressure to change elements of their written reviews or to not document a
         scientific disagreement.47 In addition, two reviewers reported that many
         survey recipients would not respond to our survey because they were
         concerned about their anonymity while discussing a sensitive topic.
         In contrast, survey respondents reported more favorably regarding their
         relationships with their peers and managers: 182 of 196 reported feeling
         comfortable discussing scientific disagreements with their peers and 176
         of 196 reported feeling comfortable discussing scientific disagreements
         with their managers. Further, 178 of 196 reported feeling that they had the
         appropriate skill set to discuss scientific disagreements with peers or
         managers. Lastly, two respondents spoke favorably about CDRH’s new
         procedures as a means of addressing scientific disagreements that are not
         resolved through discussion.




         47
           These incidents, as reported by the reviewers, occurred both before and during the FY
         2008–2010 period of our review.

Scientific Disagreements Regarding Medical Device Regulatory Decisions (OEI-01-10-00470)    19
         RECOMMENDATIONS
         Part of CDRH’s mission is to protect the public health by ensuring the safety
         and effectiveness of medical devices. Toward that end, scientists and
         researchers from multiple disciplines review thousands of submissions every
         year. Such submissions cover all aspects of a device’s life cycle, from the
         design of research protocols, to review and analysis of statistical data from
         clinical trials, to determinations of whether a device was substantially
         equivalent to one that had been approved earlier.
         CDRH’s regulatory decisions have significant implications for the public’s
         health. Therefore, its processes must ensure the scientific integrity and
         transparency of those decisions. Having robust processes to identify, openly
         discuss, resolve, and document disagreements among multiple reviewers
         contributes to that integrity.
         This evaluation identified 36 scientific disagreements between FYs 2008 and
         2010. Because CDRH did not track scientific disagreements until FY 2010,
         we requested that ODE and OIVD managers and reviewers identify all
         scientific disagreements during the FY 2008–2010 period. Turnover at
         CDRH, lack of recall of disagreements that occurred, and differing
         interpretations of what constitutes a scientific disagreement may have led to
         underreporting.
         Each disagreement and its resolution are unique; more than half involved
         multiple points of contention. Some involved the need for additional data,
         others involved decisions on whether to proceed with the next step in the
         review process, and some involved whether to give final approval or
         clearance. Some concerned the 510(k) process, which presents certain
         challenges known to CDRH not only from this evaluation but also from its
         own review and that of the Institute of Medicine. CDRH has begun to
         consider its options to improve that process.
         Most of the administrative files related to these disagreements contained
         the required documentation. However, it was unclear which specific
         employees are responsible for maintaining the administrative files.
         Furthermore, informal disagreements that were resolved without
         employing the new procedures were not always documented for these
         files.
         To strengthen its methods for resolving scientific disagreements, CDRH
         issued new procedures in October 2009. These procedures are intended to
         help managers and reviewers understand the importance of openly
         discussing and resolving scientific disagreements. However, the agency has
         not yet trained all of its managers and reviewers on the new procedures, and


Scientific Disagreements Regarding Medical Device Regulatory Decisions (OEI-01-10-00470)   20
         some reviewers report some reluctance to openly discuss or record scientific
         disagreements.
         To address these concerns, we recommend that FDA:
         Define more clearly its requirements for documenting and
         resolving scientific disagreements
         CDRH procedures require a formal process for resolving a disagreement
         when it cannot be resolved informally and is “consequential to a regulatory
         decision.” The resolution of the disagreement must be documented in the
         administrative file with a written memorandum. CDRH reviewers and
         managers have used the new procedures only three times since they were
         implemented in 2009. However, reviewers and managers reported six other
         scientific disagreements that occurred since 2009 when individuals involved
         did not invoke the new procedures.
         FDA’s regulations require that the administrative file for every significant
         FDA decision, whether raised formally or informally, contain “[t]he
         recommendations and decisions of individual employees” and that “[t]he
         recommendations and decisions are to reveal significant controversies or
         differences of opinion and their resolution.”48 Differences of opinion that are
         resolved informally may still be significant and important to ensuring a
         complete administrative file. Clarifying the definition of “significant
         controversies or differences of opinion and their resolution” would help
         CDRH to maximize transparency and ensure that important scientific
         disagreements—whether formally resolved using the new procedures or
         informally resolved—are documented appropriately in the administrative
         files.
         By more clearly defining the term “significant controversies or differences
         of opinion,” CDRH reviewers and managers could more easily identify
         disagreements that do not invoke the new procedures. Clarifying the
         definitions would also help reviewers and managers document the
         disagreements and their resolutions more consistently.
         Train all reviewers and managers on the new policies and
         procedures for resolving scientific disagreements
         Mandatory training for reviewers and managers would help to ensure that
         they were aware of the new procedures for resolving scientific
         disagreements. CDRH could use its existing system for tracking staff
         training to document training on the new procedures. Mandatory training
         would also raise awareness of scientific disagreements in general and
         communicate the importance of successfully resolving them.


         48
              21 CFR 10.70(b)(2)(i).

Scientific Disagreements Regarding Medical Device Regulatory Decisions (OEI-01-10-00470)   21
         More clearly assign accountability for the contents of the
         administrative files of all submissions
         Clarifying the definition of “FDA employee responsible for handling a
         matter” found in the regulations would improve accountability for
         completeness of the administrative file. Assigning one member of a
         submission’s review team final responsibility for the completeness of the
         file would help ensure that significant scientific disagreements are
         appropriately documented and resolved.

         AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
         RESPONSE
         FDA concurs with all three of our recommendations and outlined its plans
         to implement them.
         In response to our first recommendation, FDA stated that CDRH is
         currently revising its standard operating procedures for resolving internal
         scientific disagreements. It stated that this revision will include
         clarification on the required documentation of scientific disagreements and
         their resolutions.
         In response to our second recommendation, FDA highlighted plans to
         initiate training after CDRH releases its revised procedure. CDRH will
         track the completion of the training by all reviewers and managers to
         ensure that everyone is trained.
         In response to our third recommendation, FDA stated that CDRH is
         developing new procedures addressing the administrative files and records
         for premarket submissions. FDA stated that the procedures will include
         assigning accountability for the administrative file.
         The full text of FDA’s comments is provided in Appendix A.




Scientific Disagreements Regarding Medical Device Regulatory Decisions (OEI-01-10-00470)   22
                        APPENDIXA

                        AGENCY COMMENTS



<4
......."""....

                  ""'AR>MENT OF HEALTH AND HUMAN SERVIC"


                                                                                            Food and Drug Administration
                                                                                            Silver Spring MD 20993




                  Date:          March 28, 2012

                  To:            Inspector General

                  From:         Acting Associate Commissioner for Policy and Planning

                  Subject:      FDA's General Comment to OIG Draft Report on Scientific Disagreements
                                Regarding Medical Device Regulatory Decisions

                  FDA is providing the attached general comments to the Office ofinspector General's draft report
                  entitled, Scientific Disagreements Regarding Medical Device Regulatory Decisions (OE1-01-10­
                  00470).

                  FDA appreciates the opportunity to review and comment on this draft report before it is
                  published.                                                                         .

                                                                       /S/
                                                              David He-.-=Dorsey-~-""""----
                                                                          :----




                  Attachment




      Scientific Disagreements Regarding Medical Device Regulatory Decisions (OEI-01-10·00470)                             23
         Agency Comments (Continued)




Scientific Disagreements Regarding Medical Device Regulatory Decisions (OEI-01-10-00470)   24 

         Agency Comments (Continued)




Scientific Disagreements Regarding Medical Device Regulatory Decisions (OEI-01-10-00470)   25
         ACKNOWLEDGMENTS
         This report was prepared under the direction of Joyce M. Greenleaf,
         Regional Inspector General for Evaluation and Inspections in the Boston
         regional office, and Russell W. Hereford, Deputy Regional Inspector
         General.
         Chris Galvin served as the team leader for this study. Other principal
         Office of Evaluation and Inspections staff from the Boston regional office
         who contributed to the report include Jessica Fargnoli; central office staff
         who contributed include Talisha Searcy.




Scientific Disagreements Regarding Medical Device Regulatory Decisions (OEI-01-10-00470)   26
                   Office of Inspector General

                                       http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out through
a nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all
50 States and the District of Columbia, OI utilizes its resources by actively coordinating with the
Department of Justice and other Federal, State, and local law enforcement authorities. The investigative
efforts of OI often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
